March 5, 2003

WILLIAM J. BROWN
VICE PRESIDENT, SOUTHEAST AREA OPERATIONS

SUBJECT: Audit Report – Sexual Harassment Prevention Measures in
         the Central Florida and South Georgia Districts - Southeast Area
         (Report Number LH-AR-03-005)

This report presents the results of our audit of sexual harassment prevention
measures in the Central Florida and South Georgia Districts - Southeast Area (Project
Number 02YG010LH007). Our overall objective was to determine if the districts had
adequate policies and procedures in place to prevent sexual harassment in the
workplace, and to effectively address sexual harassment complaints to mitigate liability.
This report is based on a self-initiated review, and is the fifth in a series of ten reports
we will be issuing regarding sexual harassment prevention measures Postal
Service-wide.

We found that the Central Florida and South Georgia Districts’ sexual harassment
policies and procedures were adequate and that employees found responsible for
sexual harassment or inappropriate actions/comments were appropriately disciplined or
corrective action was taken. We also found that although no Postal Service national
policy existed regarding the retention time for informal complaint files, both districts
were retaining files indefinitely and storage of files was adequate. We also found,
however, that some areas needed improvement. Specifically, some
managers/supervisors found responsible for sexual harassment or inappropriate
actions/comments in the Central Florida District were not considered for exclusion from
the Pay for Performance Program and some sexual harassment complaints in both
districts were not effectively addressed.

The report included two recommendations to help the Central Florida and South
Georgia Districts improve their sexual harassment prevention program. Management
agreed with recommendation 1 and part of recommendation 2. The actions taken or
planned should correct some of the issues identified in this report. Management
disagreed, however, with the finding that some complaints were not effectively
addressed, and disagreed with part of recommendation 2 to fully document detailed
evidence of the actions taken to address complaints. The Office of Inspector General
(OIG) considers that part of recommendation 2 as unresolved and will address it in a
separate capping report to the senior vice president, Human Resources.
Management’s comments and our evaluation of these comments are included in this
report.

The OIG considers recommendation 2 significant, and therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions, please contact Chris Nicoloff, director, Labor Management, at
(214) 775-9114, or me at (703) 248-2300.



B. Wayne Goleski
Assistant Inspector General
 for Core Operations

Attachment

cc: Suzanne F. Medvidovich
    Murry E. Weatherall
    Peter G. Captain
    Lizbeth J. Dobbins
    Susan M. Duchek
Sexual Harassment Prevention Measures in the Central Florida          LH-AR-03-005
 and South Georgia Districts - Southeast Area


                                   TABLE OF CONTENTS

 Executive Summary                                                         i

 Part I

 Introduction                                                              1

     Background                                                            1
     Objective, Scope, and Methodology                                     1
     Prior Audit Coverage                                                  1

 Part II

 Audit Results                                                             2

     Policies and Procedures Adequate                                      2

     Employees Appropriately Disciplined or Corrective Action Taken        3

    Some Managers/Supervisors Not Considered for Exclusion From Pay
     for Performance                                                       5
    Recommendation                                                         6
    Management’s Comments                                                  6
    Evaluation of Management’s Comments                                    6

    Some Complaints Not Effectively Addressed                              7
    Recommendation                                                         8
    Management’s Comments                                                  8
    Evaluation of Management’s Comments                                    9

    File Retention and Storage Adequate                                  11

 Appendix A. Objective, Scope, and Methodology                           12

 Appendix B. Management’s Comments                                       14




                                         Restricted Information
Sexual Harassment Prevention Measures in the Central Florida                        LH-AR-03-005
 and South Georgia Districts - Southeast Area


                                  EXECUTIVE SUMMARY
 Introduction                  This report presents the results of our audit of sexual
                               harassment prevention measures in the Central Florida and
                               South Georgia Districts, located in the Southeast Area. This
                               review was self-initiated to determine if the districts had
                               adequate policies and procedures in place to prevent sexual
                               harassment in the workplace, and to effectively address
                               sexual harassment complaints to mitigate liability.

 Results in Brief              The audit revealed that the Central Florida and South
                               Georgia Districts’ sexual harassment policies and
                               procedures were adequate and that employees found
                               responsible for sexual harassment or inappropriate
                               actions/comments were appropriately disciplined or
                               corrective action was taken. We also found that although
                               no Postal Service national policy existed regarding the
                               retention time for informal complaint files, both districts were
                               retaining files indefinitely and storage was adequate. We
                               also found, however, that some areas needed improvement.
                               Specifically, some managers/supervisors found responsible
                               for sexual harassment or inappropriate actions/comments in
                               the Central Florida District were not considered for
                               exclusion from the Pay for Performance Program, and some
                               sexual harassment complaints in both districts were not
                               effectively addressed.

 Summary of                    The report included two recommendations to help the
 Recommendations               Central Florida and South Georgia Districts improve their
                               sexual harassment prevention program. We recommended
                               the vice president, Southeast Area Operations, instruct the
                               Central Florida District manager, to establish controls to
                               ensure managers/supervisors disciplined for sexual
                               harassment or inappropriate actions/comments of a sexual
                               nature are considered for exclusion from all pay for
                               performance or other bonus programs; and that both
                               districts establish controls to ensure managers and
                               supervisors effectively address all sexual harassment
                               complaints and inappropriate actions/comments of a sexual
                               nature, and fully document detailed evidence of the actions
                               taken to address complaints.

 Summary of                    Management agreed with recommendation 1 and stated it
 Management’s                  would establish controls that were consistent with program
 Comments                      guidelines. They said, however, no instruction or controls
                               could be established at this time because there is no pay for

                                                    i
                                         Restricted Information
Sexual Harassment Prevention Measures in the Central Florida                                            LH-AR-03-005
 and South Georgia Districts - Southeast Area


                                    performance program in place for Executive and
                                    Administrative Schedule employees. They said there is a
                                    new pilot program for Postal Career Executive Service
                                    employees; however, any controls initiated at the district
                                    level would need to occur after national implementation of
                                    that program.

                                    Management agreed with the part of recommendation 2 that
                                    managers and supervisors must effectively address all
                                    sexual harassment complaints. Management disagreed,
                                    however, with the finding that some sexual harassment
                                    complaints were not effectively addressed and with the part
                                    of recommendation 2 to fully document detailed evidence of
                                    the actions taken to address complaints. They stated Postal
                                    Service guidelines and policies allow managers’ maximum
                                    flexibility to address complaints simply and directly between
                                    the parties without a formal written record; and although all
                                    matters of sexual harassment will be fully investigated, not
                                    all will result in a full written record.

                                    Management’s comments, in their entirety, are included in
                                    Appendix B of this report.

    Overall Evaluation of           Management’s actions taken or planned are responsive to
    Management’s                    recommendation 1 and part of recommendation 2.
    Comments                        Management’s comments are not responsive to the
                                    second part of recommendation 2. We believe
                                    documentation plays an important role in determining
                                    creditability and mitigating liability. We do not agree with
                                    management’s rationale for not documenting actions taken
                                    to address complaints. Postal Service policy is clear that
                                    serious complaints must be documented, and further
                                    provides that “When in doubt, document.” The Office of
                                    Inspector General considers recommendation 2 unresolved
                                    and will address it in a separate capping report.1




1
  We will issue a capping report on the audit results for the nine areas we visited, including Southeast Area, where
recommendations regarding national policy will be made to the senior vice president, Human Resources.

                                                          ii
                                               Restricted Information
Sexual Harassment Prevention Measures in the Central Florida                                          LH-AR-03-005
 and South Georgia Districts - Southeast Area


                                          INTRODUCTION
    Background                       Sexual harassment is defined by law as unwelcome sexual
                                     advances, requests for sexual favors, and other verbal or
                                     physical conduct of a sexual nature that becomes a term or
                                     condition of employment. According to a Postal Service
                                     Law Department report, in fiscal years (FY) 2000 and 2001,
                                     the Postal Service paid approximately $394,8332 for sexual
                                     harassment judgments and settlements in the Southeast
                                     Area.

    Objective, Scope, and            Our overall objective was to determine if the districts had
    Methodology                      adequate policies and procedures in place to prevent sexual
                                     harassment in the workplace, and to effectively address
                                     sexual harassment complaints to mitigate liability. Our
                                     objective, scope, and methodology are discussed in
                                     Appendix A.

    Prior Audit Coverage             We did not identify any prior audits or reviews related to the
                                     objective of this audit in these two districts.




2
    This amount represents eight complaints. None of these complaints were within the scope of our review.

                                                      1
                                           Restricted Information
Sexual Harassment Prevention Measures in the Central Florida                           LH-AR-03-005
 and South Georgia Districts - Southeast Area


                                   AUDIT RESULTS
 Policies and                  We found that the Central Florida and South Georgia
 Procedures Adequate           Districts had adequate policies and procedures that should
                               enable district management to identify and prevent sexual
                               harassment or inappropriate actions/comments, and provide
                               management with guidance to respond effectively to
                               complaints, thus mitigating liability and costs.

                               We also found that the districts:

                                   •     Established as district policies, Postal Service
                                         Publication 552, Manager’s Guide to Understanding
                                         Sexual Harassment, and Publication 553,
                                         Employee’s Guide to Understanding Sexual
                                         Harassment.

                                   •     Established investigative teams at the district level to
                                         investigate all complaints.

                               Additionally, we found:

                                   •     The Southeast Area partnered with diversity, law,
                                         and Equal Employment Opportunity departments and
                                         developed a tool-kit to assist managers in addressing
                                         sexual harassment complaints.

                                   •     The Central Florida District established a sexual
                                         harassment awareness week and sent reminders to
                                         all employees of the Postal Service’s zero tolerance
                                         policy. In addition, the district provided a booklet to
                                         employees during orientation entitled, How to
                                         Recognize and Prevent Sexual Harassment in the
                                         Workplace.




                                                  2
                                       Restricted Information
Sexual Harassment Prevention Measures in the Central Florida                                               LH-AR-03-005
 and South Georgia Districts - Southeast Area




    Employees Appro-        We found that employees responsible for sexual
    priately Disciplined or harassment or inappropriate actions/comments were
    Corrective Action       appropriately disciplined, or corrective action was taken.
    Taken
                            Equal Employment Opportunity Commission 1990 and
                            1999 guidelines recommended agencies take immediate
                            and appropriate corrective action, including discipline, when
                            sexual harassment occurred. Postal Service policy stated
                            employees engaged in sexual harassment would be subject
                            to disciplinary action, up to and including removal. The
                            policy also stated that disciplinary action might result even if
                            the conduct was not sexual harassment as defined by the
                            law, but was inappropriate and of a sexual nature.

                                      Our review of formal and informal3 complaints in the Central
                                      Florida and South Georgia Districts showed that:

                                           •     Of the 24 formal and informal sexual harassment
                                                 complaints filed in the Central Florida District, sexual
                                                 harassment or inappropriate actions/comments were
                                                 not substantiated in 17, substantiated in 4, and
                                                 inconclusive in 2. For the one remaining complaint,
                                                 management did not conduct an inquiry or
                                                 investigation to determine whether sexual
                                                 harassment or inappropriate actions/comments had
                                                 occurred, and thus no discipline or corrective action
                                                 was considered or taken.

                                                 – In the four substantiated complaints,
                                                   four employees were involved and three were
                                                   appropriately disciplined or corrective action was
                                                   taken. The remaining employee retired before
                                                   discipline could be issued.

                                                 – In the one inconclusive complaint, corrective
                                                   action in the form of service talks, were given to
                                                   all employees in the facility.




3
    The term “informal” complaint refers to those not filed in the Equal Employment Opportunity process.

                                                          3
                                               Restricted Information
Sexual Harassment Prevention Measures in the Central Florida                        LH-AR-03-005
 and South Georgia Districts - Southeast Area



                                   •     Of the 12 formal sexual harassment complaints filed
                                         in the South Georgia District, sexual harassment or
                                         inappropriate actions/comments were not
                                         substantiated in 8, and substantiated in 4.

                                         – In the four substantiated complaints,
                                           four employees were involved and all were
                                           appropriately disciplined or corrective action was
                                           taken.




                                                  4
                                       Restricted Information
Sexual Harassment Prevention Measures in the Central Florida                                   LH-AR-03-005
 and South Georgia Districts - Southeast Area




    Some Managers/               We found four employees in the South Georgia District were
    Supervisors Not              found responsible for sexual harassment or inappropriate
    Considered for               actions/comments, and none were eligible for the Pay for
    Exclusion from Pay           Performance Program.
    for Performance
                                 We also found that four employees in the Central Florida
                                 District were found responsible for sexual harassment or
                                 inappropriate actions/comments. Two were
                                 managers/supervisors who were eligible for the Pay for
                                 Performance Program.4 However, neither was considered
                                 for exclusion. One manager/supervisor received
                                 $2,052 and the other received $2,824.

                                 According to Central Florida District management, the only
                                 employees excluded from the Pay for Performance
                                 Program were those who: (1) received an unacceptable
                                 performance evaluation, (2) were downgraded from a
                                 management/supervisory position to a craft employee, or
                                 (3) were terminated.

                                 Equal Employment Opportunity Commission guidelines
                                 included a reduction in wages as an effective corrective
                                 measure to stop harassment and ensure it does not
                                 reoccur. Postal Service policy stated an employee whose
                                 conduct was clearly unacceptable may be excluded from
                                 the Pay for Performance Program. The Postal Service
                                 described unacceptable behavior as “notoriously disgraceful
                                 or immoral conduct, or other conduct prejudicial to the
                                 Postal Service.”

                                 We believe sexual harassment meets the Postal Service’s
                                 definition of unacceptable behavior or immoral conduct and
                                 all managers/supervisors found responsible for sexual
                                 harassment or inappropriate actions/comments of a sexual
                                 nature should be considered for exclusion from pay for
                                 performance and bonus programs. Such exclusion could be
                                 an effective corrective measure to stop harassment and
                                 ensure it does not reoccur.




4
  The Pay for Performance Program, formerly referred to as the Economic Value Added Program, was an
incentive award program for nonbargaining employees. The amount of money received by each employee
was based on a group achievement of performance targets and financial measurements.

                                                  5
                                       Restricted Information
Sexual Harassment Prevention Measures in the Central Florida                      LH-AR-03-005
 and South Georgia Districts - Southeast Area




 Recommendation                We recommend the vice president, Southeast Area
                               Operations, instruct the Central Florida District manager to:

                                    1. Establish controls to ensure managers/supervisors
                                       disciplined for sexual harassment or inappropriate
                                       actions/comments of a sexual nature are considered
                                       for exclusion from all pay for performance or bonus
                                       programs.

 Management’s                  Management agreed with our recommendation that
 Comments                      managers/supervisors disciplined for sexual harassment or
                               inappropriate actions/comments of a sexual nature should
                               be considered for exclusion from the pay for performance or
                               bonus programs, if such consideration is consistent with
                               program guidelines. Management stated, however, no
                               instruction or controls can be established at this time
                               because there is no pay for performance program for
                               Executive and Administrative Schedule employees.
                               Management stated that a new program is currently being
                               piloted for Postal Career Executive Service employees, and
                               any controls initiated at the district level for exclusion
                               consideration would need to occur after the national
                               program is implemented.

 Evaluation of                 Management’s actions taken or planned should correct the
 Management’s                  issues identified in the report.
 Comments




                                                6
                                     Restricted Information
Sexual Harassment Prevention Measures in the Central Florida                                         LH-AR-03-005
 and South Georgia Districts - Southeast Area




    Some Complaints Not Our audit disclosed that 8 of the 36 sexual harassment
    Effectively Addressed complaints were not effectively addressed in the Central
                          Florida and South Georgia Districts. Equal Employment
                          Opportunity Commission guidelines defined an “effective”
                          investigation as a prompt, thorough, and impartial review
                          with documented evidence. Postal Service policy required
                          managers to conduct sexual harassment inquiries promptly
                          and investigate all complaints, and document “serious”
                          complaints with detailed evidence.5

                                   We found that:

                                       •     Postal Service national policy did not require that “all”
                                             complaints be documented—only those that
                                             managers believed were “serious.”

                                       •     Of the 24 formal and informal complaints filed in the
                                             Central Florida District, 20 were effectively addressed
                                             and 4 were not.

                                             – In the four not effectively addressed, one was not
                                               prompt, one was not impartial or documented,
                                               one was not documented, and one was not
                                               investigated.

                                             – District management provided numerous reasons
                                               why the four complaints were not effectively
                                               addressed. For example, for the complaint that
                                               was not prompt, we found it was not addressed
                                               for 9 days. Management stated this was the
                                               amount of time necessary to assemble trained
                                               investigators to conduct the investigation.

                                       •     Of the 12 formal and informal complaints filed in the
                                             South Georgia District, 8 were effectively addressed
                                             and 4 were not.

                                             – In the four not effectively addressed, one was not
                                               prompt, two were not documented or thorough,
                                               and one was not impartial.

5
  Publication 552 was revised effective September 2001, and replaced the term “serious” with the statement
“some complaints can be resolved simply and directly between the parties without the need for a formal
written record.” The revised policy also provided that managers/supervisors needed to decide early in the
process whether formal documentation was warranted, and that a good rule of thumb was when in doubt,
document.

                                                      7
                                           Restricted Information
Sexual Harassment Prevention Measures in the Central Florida                      LH-AR-03-005
 and South Georgia Districts - Southeast Area



                                       – District management provided numerous reasons
                                         why the four complaints were not effectively
                                         addressed. For example, in the complaint we
                                         determined was not impartially investigated, the
                                         files contained allegations that the postmaster,
                                         who was the alleged harasser, coached
                                         witnesses before they were interviewed by the
                                         investigative team. District management
                                         disagreed that the postmaster’s involvement was
                                         a factor because witnesses were instructed to be
                                         truthful during their interview.

                               Complaints not effectively addressed could result in liability
                               because the Postal Service cannot demonstrate it exercised
                               reasonable care to prevent and promptly correct harassing
                               behavior. We believe the lack of a Postal Service policy
                               requiring documentation of all complaints may have been a
                               factor. We will address this issue in a separate report.

 Recommendation                We recommend the vice president, Southeast Area
                               Operations, instruct the Central Florida and South Georgia
                               District managers to:

                                    2. Establish controls to ensure managers and
                                       supervisors effectively address all sexual
                                       harassment complaints and inappropriate
                                       actions/comments of a sexual nature, and fully
                                       document detailed evidence of the actions taken to
                                       address complaints.

 Management’s                  Management agreed with part of the recommendation that
 Comments                      all sexual harassment complaints be promptly, thoroughly,
                               and impartially investigated. However, management
                               disagreed with the finding that some complaints were not
                               effectively addressed. Management also disagreed, with
                               the part of the recommendation to fully document detailed
                               evidence of the actions taken to address complaints. They
                               stated that all matters of sexual harassment would be fully
                               investigated, however, not all of them will result in a full
                               written record.




                                                8
                                     Restricted Information
Sexual Harassment Prevention Measures in the Central Florida                         LH-AR-03-005
 and South Georgia Districts - Southeast Area



                               Management stated that the finding that some complaints
                               were not effectively addressed, was based on subjective
                               standards that were not clearly defined or consistent with
                               current policy. For example, they stated that timely was
                               defined as, within 48 hours, and that there was no 48-hour
                               standard in any published policies regarding investigations
                               of sexual harassment. They said the time required to
                               investigate allegations will vary depending on the
                               circumstances of each case. Further, management stated
                               the categorization of one South Georgia complaint as “not
                               impartial” was apparently based on an “allegation” that the
                               postmaster “coached” witnesses—telling them to tell the
                               truth—before they were interviewed by an investigative
                               team. Management stated this allegation was not
                               supported.

                               Regarding the recommendation to fully document actions
                               taken to address complaints, management stated that
                               Postal Service policy allows some matters to be resolved
                               simply and directly between the parties without a formal
                               written record. They said this allows managers’ maximum
                               flexibility and speed to deal with those minor, one-time
                               events such as an off-color joke or careless remark.
                               Management stated to require documentation on every
                               minor incident of inappropriate workplace behavior would
                               potentially undermine the ability of supervisors to quickly
                               and effectively resolve minor workplace issues.
                               Additionally, they stated when frivolous and baseless
                               charges of harassment are levied, managers need not
                               create a written record on the unjustly accused employee.
                               Management stated that although all matters will be fully
                               investigated, not all complaints would result in a full written
                               record with detailed evidence.

 Evaluation of                 Management’s actions taken or planned is responsive to the
 Management’s                  first part of our recommendation. However, management’s
 Comments                      comments were not responsive to the second part of the
                               recommendation. We believe the audit results support the
                               assertion that the eight complaints were not effectively
                               addressed. We do not agree that the complaints identified
                               as not effectively addressed were based on subjective
                               categorizations. The 48-hour timeframe for responding to
                               complaints was based on Equal Employment Opportunity
                               Commission and Postal Service guidelines, the definitions
                               of “prompt” and “immediate” (used in guidelines and policy),


                                                9
                                     Restricted Information
Sexual Harassment Prevention Measures in the Central Florida                         LH-AR-03-005
 and South Georgia Districts - Southeast Area


                               and discussions with Postal Service Headquarters officials.
                               One vice president told us he expected his managers or
                               supervisors to respond to a complaint within 24 hours.
                               Additionally, we did not make our determination of
                               promptness based on how long it took to complete the
                               inquiry or investigation, but rather how long it took
                               management to respond when they became aware of the
                               allegation.

                               Our determination that one South Georgia District complaint
                               was not impartial was based on information contained in the
                               complaint file that strongly indicated the postmaster, who
                               was the alleged harasser, was involved in the interview
                               process. The allegation was that he “coached” witnesses.
                               We believe that the alleged harasser should not have any
                               involvement or influence that could affect the objectivity of
                               the witnesses or the process.

                               We do not agree with management that documenting
                               actions would potentially lead to a failure in the ability of
                               supervisors to quickly resolve minor workplace issues.
                               Documenting action management took after they address
                               the complaint has no impact on how quickly a matter can be
                               resolved. It does, however, play an important role in
                               determining credibility and mitigating liability in future cases.
                               In addition, it provides a record of the action taken which
                               could be significant in the event of future sexual harassment
                               complaints against the same person. Postal Service policy
                               is clear that serious complaints must be documented, and
                               further provides that “When in doubt, document.” We
                               believe the policy does not limit management from
                               documenting all actions, it simply establishes a floor, not a
                               ceiling for addressing complaints. We view the
                               disagreement on this part of the recommendation as
                               unresolved and it will be addressed in our capping report.




                                               10
                                     Restricted Information
Sexual Harassment Prevention Measures in the Central Florida                           LH-AR-03-005
 and South Georgia Districts - Southeast Area




 File Retention and            Our audit found there was no Postal Service policy
 Storage Adequate              regarding the retention time for informal complaint files.
                               However, both districts retained informal complaint files
                               indefinitely and storage of files was also adequate.

                               Equal Employment Opportunity Commission guidance
                               stated formal sexual harassment complaint files should be
                               retained for at least 4 years after resolution of the complaint.
                               Postal Service policy stated once an inquiry/investigation
                               was conducted, files should be forwarded for storage, to the
                               district Human Resources manager. According to a
                               headquarters senior Postal Service manager, the intent of
                               this policy was to centrally locate the files with the Human
                               Resources manager.

                               Retaining and storing informal complaint files in a central
                               location ensures file availability if needed to mitigate liability.
                               We will address the need for a national retention policy in a
                               separate report.




                                               11
                                     Restricted Information
Sexual Harassment Prevention Measures in the Central Florida                                         LH-AR-03-005
 and South Georgia Districts - Southeast Area


     APPENDIX A. OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective was to determine if the Central Florida and South Georgia Districts,
in the Southeast Area, implemented adequate policies and procedures to prevent
sexual harassment6 in the workplace and to effectively address sexual
harassment complaints to mitigate liability. Our district selections were based on
interviews with the senior vice president, Human Resources; vice president,
Diversity Development; and the vice president, Southeast Area Operations. We
also considered the number of closed formal sexual harassment complaints in
each of the nine Southeast Area districts.

To accomplish our objective, we reviewed applicable laws, policies, procedures,
and other documents including Equal Employment Opportunity Commission
guidelines, Postal Service national policies, the Southeast Area, and Central
Florida and South Georgia District policies for preventing sexual harassment in
the workplace. We also reviewed Postal Service national policy regarding the
Pay for Performance Program. In addition, we reviewed previously issued OIG
reports related to sexual harassment issues. Further, we interviewed Postal
Service Headquarters, Southeast Area, and Central Florida and South Georgia
District officials.

To determine if adequate policies and procedures were in place to prevent
sexual harassment from occurring in the workplace, we identified Equal
Employment Opportunity Commission key recommendations to agencies
regarding policies and procedures that should be in place to prevent sexual
harassment and reduce the risk of agency liability. We then reviewed the Postal
Service national, Southeast Area, and Central Florida and South Georgia
Districts’ policies and procedures to determine if the recommendations were
included.

To determine whether district managers effectively addressed informal sexual
harassment complaints to mitigate liability, we analyzed the documentation
contained in formal and informal complaint files that were filed and closed7 in
FYs 2000 and 2001,8 for the two districts, we selected. We recorded information
related to promptness, thoroughness, impartiality and the level of documentation.
These fiscal years were chosen because they were the most recent and
complete fiscal years at the time of our fieldwork. The number of formal and
informal closed complaints was obtained from the Postal Service


6
  For the purpose of this report, we used the legal definition of sexual harassment defined in part, in
29 C.F.R. § 1604.11(a), as unwelcome sexual conduct that is a term or a condition of employment. In
addition, we included the Postal Service policy regarding inappropriate actions/comments of a sexual nature
when reviewing sexual harassment complaint files.
7
  Sexual harassment complaints may be considered closed for a number of reasons including: (1) the
inquiry/investigation was completed, (2) a settlement had been reached, (3) the complaint was withdrawn, or
(4) discipline or corrective action was taken.
8
  We used the Postal Service fiscal years that started September 11, 1999, and ended September 7, 2001.

                                                   12
                                         Restricted Information
Sexual Harassment Prevention Measures in the Central Florida                                        LH-AR-03-005
 and South Georgia Districts - Southeast Area


Equal Employment Opportunity case file database, and district management
respectively. We then excluded those complaints where the employees filed
their complaints directly with the Equal Employment Opportunity office and
requested confidentiality. These were excluded because honoring the request
for confidentiality precluded the Equal Employment Opportunity office from
notifying district management that a complaint had been made. This in turn
precluded management from conducting an investigation. We then determined
there were 36 closed complaint files as follows:

                                                    Complaints              Total Complaints
                    District
                                                 Formal   Informal             Per District
      Central Florida                               9        15                    24
      South Georgia                                 3         9                    12
       Total                                       12        24                    36

We also determined if the retention and storage of informal files were adequate
using Postal Service national, area, and district policies as well as Equal
Employment Opportunity Commission guidelines.

In addition, we determined whether employees found responsible for sexual
harassment received appropriate discipline using Equal Employment Opportunity
Commission guidelines, Postal Service policies and procedures, and some
elements of the Douglas Factors.9 We included in this determination whether or
not managers or supervisors found responsible for sexual harassment or
inappropriate actions/comments were considered for exclusion from the Pay for
Performance Program.

This audit was conducted from February 2002 through March 2003 in
accordance with generally accepted government auditing standards and included
such tests of internal controls as were considered necessary under the
circumstances. We discussed our conclusions and observations with appropriate
management officials and included their comments, where appropriate.




9
 The Douglas Factors were developed as a result of case law (Douglas v. the Veterans’ Administration)
where the Merit Systems Protection Board ruled that management must document certain factors to be
considered in making a determination of appropriate disciplinary action.

                                                   13
                                         Restricted Information
Sexual Harassment Prevention Measures in the Central Florida   LH-AR-03-005
 and South Georgia Districts - Southeast Area


              APPENDIX B. MANAGEMENT’S COMMENTS




                                               14
                                     Restricted Information
Sexual Harassment Prevention Measures in the Central Florida   LH-AR-03-005
 and South Georgia Districts - Southeast Area




                                               15
                                     Restricted Information
